                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: 1-11120045                                                                 Page 1 of 1



         This case was opened following the review of an audit report that identified a company 1 that
         mischarged labor related to a former employee. The company reviewed its records and certified
         that the employee in question had no hours charged to NSF awards.

         This case is closed with no further action taken.




                                                                               i\




NSF OIG Form 2 (11/02)
i.
